App. 1
2019 OK CR 9
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
JESSE ALLEN JOHNSON, )
) FOR PUBLICATION
Petitioner,
)
v.
) No. PR 2018-1203
THE HONORABLE
)
RAY C. ELLIOTT,
)
JUDGE OF THE
)
DISTRICT COURT,
)
THE STATE OF
)
OKLAHOMA,
)
)
Respondent.
ORDER GRANTING APPLICATION FOR
EXTRAORDINARY RELIEF AND REMANDING
MATTER TO DISTRICT COURT
(Filed May 24, 2019)
¶1 On November 29, 2018, Petitioner, by and
through counsel Melissa A. French, filed an application
for an extraordinary writ in this Court from Oklahoma
County District Court Case No. CF-2005-5714. Petitioner seeks an extraordinary writ to prohibit the
Honorable Ray C. Elliott, District Judge, from resentencing him without empaneling a jury pursuant to 22
O.S.2011, § 929. Petitioner submits the District Court
cannot legally sentence him without first empaneling
a jury pursuant to the Mandate issued in Jesse Allen

App. 2
Johnson v. State of Oklahoma, Appeal No. PC 2017755, issued May 22, 2018.
¶2 Petitioner, age seventeen, entered a blind plea
of guilty on November 29, 2006, to First Degree Murder. He was sentenced to life imprisonment without the
possibility of parole. Petitioner’s certiorari appeal to
this Court was affirmed in a Summary Opinion issued
October 3, 2007, Appeal No. C-2007-83.
¶3 Citing Miller v. Alabama, 567 U.S. 460, 132
S.Ct. 2455, 183 L.Ed.2d 407 (2012), Montgomery v.
Louisiana, 577 U.S. ___, 136 S.Ct. 718, 193 L.Ed.2d 599
(2016), and Luna v. State, 2016 OK CR 27, 387 P.3d
956, Petitioner filed a post-conviction application in
the District Court on March 13, 2017, alleging that because he was a minor at the time he was sentenced, the
imposition of a life without parole sentence was unconstitutional. The denial of Petitioner’s post-conviction
application was appealed to this Court. In an Order issued May 22, 2018, Appeal No. PC 2017-0755, Petitioner’s sentence of life without parole was vacated and
the matter was remanded to the District Court for resentencing.
¶4 On August 27, 2018, Petitioner filed in the
District Court a request for a jury trial on resentencing
to which the State objected. A hearing was held before
Judge Elliott on October 18, 2018. Judge Elliott denied
Petitioner’s request for a jury resentencing as he found
Petitioner waived his right to sentencing by a jury
when Petitioner entered his blind plea of guilty in
2006. Petitioner is seeking extraordinary relief from

App. 3
this Court to reverse the order denying jury resentencing.
¶5 For a writ of prohibition Petitioner must establish that (1) a court, officer or person has or is about
to exercise judicial or quasi-judicial power; (2) the exercise of said power is unauthorized by law; and (3) the
exercise of said power will result in injury for which
there is no other adequate remedy. Rule 10.6(A), Rules
of the Oklahoma Court of Criminal Appeals, Title 22,
Ch.18, App. (2019).
¶6 In Stevens v. State, 2018 OK CR 11, ¶¶ 31, 3840, 422 P.3d 741, 749-751, the District Court’s order
denying post-conviction relief was reversed by this
Court, the matter was remanded to the District Court
for resentencing, and the procedures for conducting
said resentencing were established. As in the present
case where Petitioner entered a plea of guilty and was
sentenced to life without the possibility of parole for
First Degree Murder, Stevens was sentenced to life
without the possibility of parole when he entered a negotiated plea of guilty in 1996 to First Degree Murder.
Stevens directs that the trial court shall schedule the
matter for resentencing in accordance with both Sections 812.1 and 929 of Title 22 and to conduct resentencing pursuant to Section 929 of Title 22.
¶7 Section 929(C) directs that if a written request for a jury trial is filed within twenty days of the
date of the appellate court order, the trial court shall
impanel a new jury for a new sentencing proceeding.
This means there is no judicial discretion in whether

App. 4
or not a judge proceeds with a jury for resentencing. If
the State or defendant files a request, but is outside
the twenty days, then the trial court must utilize Section 929(B).
¶8 Allowing for a discretionary decision, Section
929(B) directs that when a criminal case is remanded
for vacation of a sentence, the trial court may (1) set
the case for a nonjury sentencing proceeding; or (2) if
the defendant or the prosecutor so requests in writing,
impanel a new sentencing jury. In this case, a written
request for a jury trial was not filed within twenty days
from the date of this Court’s Order granting postconviction relief. Thus, Section 929(C)’s mandatory
language is not at issue, and the judge correctly used
Section 929(B) in making a decision.
¶9 Section 929(B) gives the trial judge the discretion to impanel a jury if requested or to set the case
for nonjury sentencing. In making his decision, Judge
Elliott denied Petitioner’s request for jury trial resentencing based upon a finding that Petitioner waived
his right to sentencing by a jury when he entered his
blind plea in 2006.
¶10 This finding is contrary to our decision in
Stevens. Petitioner did not waive his rights under
Miller when he entered his guilty plea. Stevens, 2018
OK CR 11, ¶ 23, 422 P.3d at 748. The Sixth Amendment demands that the trial necessary to impose
life without parole on a juvenile homicide offender
must be a trial by jury, unless a jury is affirmatively
waived. Stevens, 2018 OK CR 11, ¶ 34, 422 P.3d at 750.

App. 5
Petitioner’s waiver of his right to jury trial in 2006 was
not an affirmative waiver of his rights to a jury on sentencing that he now possesses under Miller.
¶11 Therefore, we find this holding is an abuse
of discretion as it is contrary to this Court’s holding in
Stevens. Petitioner has met his burden for an extraordinary writ. The trial court’s denial of Petitioner’s request for jury trial resentencing based upon waiver is
VACATED, and the matter is REMANDED to the
trial court for a decision using his discretion under the
directives in Stevens v. State, 2018 OK CR 11, ¶¶ 3839, 422 P.3d 741, 750-751, in determining which resentencing procedure pursuant to Section 929 of Title 22
is appropriate. Petitioner’s pleas of guilty and convictions remain constitutionally valid.
¶12 The Clerk of this Court is directed to transmit a copy of this Order to the Honorable Ray C. Elliott,
District Judge, as well as the parties.
¶13 IT IS SO ORDERED.
¶14 WITNESS OUR HANDS AND THE SEAL
OF THIS COURT this 24th day of May
, 2019.
/s/ David B. Lewis
DAVID B. LEWIS,
Presiding Judge
/s/ Dana Kuehn
DANA KUEHN,
Vice Presiding Judge

App. 6
/s/ Gary L. Lumpkin
GARY L. LUMPKIN,
Judge
Robert L. Hudson –
/s/ Dissent (Writing Attached)
ROBERT L. HUDSON,
Judge
Scott Rowland – I dissent
/s/ by separate writing.
SCOTT ROWLAND,
Judge
ATTEST:
/s/ John D. Hadden
Clerk

HUDSON, J., DISSENTING:
¶1 I join Judge Rowland in his dissenting opinion. I write separately to emphasize the need to clarify
Stevens v. State, 2018 OK CR 11, ¶¶ 34-40, 422 P.3d
741, 750-51, to the extent it implies that the Sixth
Amendment demands jury sentencing despite a prior,
valid waiver of that right. The advent of Miller and
Montgomery did not create any new constitutional
right to jury sentencing under the Sixth Amendment
that necessitates the restoration of that right once affirmatively waived. As Judge Rowland observes, both
Montgomery and Miller reference judge sentencing.

App. 7
¶2 Moreover, the Majority misinterprets and applies 22 O.S.2011, § 929. The Majority overlooks pivotal language contained in Sections 929(B)(2) and
929(C), which each reference impaneling a new jury.
Section 929(B)(2) provides the trial court may “impanel a new sentencing jury” if the defendant or the
prosecutor so request in writing. (emphasis added).
Section 929(C) states, “[i]f a written request for a jury
trial is filed within twenty (20) days of the date of the
appellate court order, the trial court shall impanel a
new jury for the purpose of conducting a new sentencing proceeding.” (emphasis added). To “impanel a new
jury[,]” it is axiomatic that the original sentencing proceeding was a jury sentencing.1 There can be no other
interpretation. This language is clear and unambiguous. See State v. Cooper, 2018 OK CR 40, ¶ 11, 434 P.3d
951, 954 (rules outlining statutory interpretation, including construing statutes according to the plain and
ordinary meaning of their language and giving effect
to legislative intent). Therefore, if jury sentencing was
validly waived during the original proceedings, § 929
does not entitle the defendant to jury sentencing upon
remand from this Court. Judge Elliott’s denial of Petitioner’s request for jury trial resentencing on grounds
that Petitioner waived his right to jury sentencing

1

This interpretation is supported by and consistent with 21
O.S.2011, § 701.10a relating to resentencing in death penalty
cases, which specifically provides that the prosecutor may only
“move the trial court to impanel a new sentencing jury . . . provided[ ] the original sentencing proceeding was conducted before
a jury[.]” 21 O.S.2011, § 701.10a(1)(b) (emphasis added).

App. 8
when he entered his blind plea in 2006 was thus not
an abuse of discretion.
¶3 For these reasons and those espoused from
Judge Rowland’s dissenting opinion, I dissent.

ROWLAND, JUDGE, DISSENTING:
¶1 I respectfully dissent from today’s Order. The
majority finds Judge Elliott abused his discretion by
entering an order he clearly had the authority and discretion to enter. In my view, Judge Elliott got it right.
In Stevens v. State, 2018 OK CR 11, ¶¶ 33-40, 422 P.3d
741, 749-51, we established procedures for conducting
the individualized sentencing hearing required by the
United States Supreme Court before a juvenile homicide offender may be sentenced to life imprisonment
without the possibility of parole (LWOP). See Montgomery v. Louisiana, 577 U.S. ___, 136 S.Ct. 718, 193
L.Ed.2d 599 (2016); Miller v. Alabama, 567 U.S. 460,
132 S.Ct. 2455, 183 L.Ed.2d 407 (2012). When this
Court ordered resentencing for Stevens, who is not
only a juvenile homicide offender previously sentenced
to LWOP but also Johnson’s co-defendant, we directed
the district court to follow the dictates in 22 O.S.2011,
§ 929. Stevens, 2018 OK CR 11, ¶ 38, 422 P.3d at 751.
The trial judge, under Section 929, has discretion
whether to impanel a jury, unless a written request for
jury sentencing is filed within twenty days of the appellate court’s remand order, in which case jury sentencing is mandatory. 22 O.S.2011, § 929 (B) & (C).

App. 9
Johnson filed his request for jury sentencing sixty-five
days after this Court issued its remand order, and
Judge Elliott denied his request upon finding that
Johnson had waived his right to jury sentencing, along
with other trial rights, when he entered his knowing
and voluntary blind plea of guilty.
¶2 Therein lies the rub: Judge Elliott exercised
his discretion based upon his sound belief that Johnson’s 2006 guilty plea, including his waiver of jury
trial, remained intact. While the majority correctly
holds that Johnson did not waive his rights under
Miller/Montgomery to an individualized sentencing
proceeding because that case had yet to be decided, it
misapprehends the constitutional requirements for
such a proceeding. Neither Miller nor Montgomery created any new constitutional right to jury sentencing
under the Sixth Amendment or provided for restoration of that right once waived. The right to be free from
cruel and unusual punishments is as old as the Bill of
Rights itself. U.S. Const., amend. VIII; Okla. Const.,
art. 2, § 9. Miller and Montgomery merely extended the
age-old protections of the Eighth Amendment to forbid
the imposition of a sentence of LWOP on juvenile homicide offenders unless certain factors are proved beyond a reasonable doubt.
¶3 Even were Johnson’s right to jury sentencing
somehow restored despite his 2006 waiver, the fact remains that he did not act to enforce this right by timely
filing his written request as required by Section
929(C). Thus, even after the issuance of this writ,
Judge Elliott retains discretion to once again deny

App. 10
Johnson’s request for jury sentencing so long as he
does not base his denial upon his opinion that Johnson’s earlier waiver remains valid.
¶4 It is undisputed Johnson knowingly and voluntarily waived his right to jury trial and sentencing
twelve years ago when he pled guilty to First Degree
Murder and received his LWOP sentence. This Court
rejected his attempt to withdraw that plea in a certiorari appeal, noting that “[t]his was an extensive guilty
plea hearing and sentencing with many witnesses. The
trial judge was especially thorough, explained the process to Petitioner, and ensured Petitioner was thoroughly advised as to all facets of the plea.” Johnson
v. State, Case No. C-2007-0083 (unpublished) (Okla.
Crim. App., Oct. 3, 2007).
¶5 Nothing in the Supreme Court’s or this
Court’s Eighth Amendment jurisprudence concerning
juveniles sentenced to LWOP (Montgomery, Miller,
Luna or Stevens) suggests these cases operate to revive
an otherwise validly waived right to jury sentencing.
Nor do these cases require the constitutionallymandated individualized sentencing proceeding be
held before a jury, and in fact both Supreme Court
cases specifically refer to a sentencing judge. Montgomery, 136 S.Ct. at 733 (“Miller requires that before
sentencing a juvenile to life without parole, the sentencing judge take into account “how children are different. . . .”); Miller, 567 U.S. at 489, 132 S.Ct. at 2475
(“Graham, Roper, and our individualized sentencing
decisions make clear that a judge or jury must have
the opportunity to consider mitigating circumstances

App. 11
before imposing the harshest possible penalty for juveniles.”)
¶6 In Stevens, we set forth guidelines for a broad
category of cases, without specifically addressing
whether a previous, valid waiver of jury trial and sentencing was restored by Miller, Montgomery, Luna,
and/or Stevens. I believe we should clarify our opinion
in Stevens and hold that if jury sentencing was validly
waived during the original plea, the defendant is not
entitled to jury sentencing upon remand from this
Court.
¶7 Although Oklahoma’s statutory right to jury
sentencing creates a federal liberty interest under the
Fourteenth Amendment, Hicks v. Oklahoma, 447 U.S.
343, 346, 100 S.Ct. 2227, 2229, 65 L.Ed.2d 175 (1980),
there is no federal constitutional right to jury sentencing under the Sixth Amendment. Clemons v. Mississippi, 494 U.S. 738, 746, 110 S.Ct. 1441, 1447, 108
L.Ed.2d 725 (1990). Notably, the Supreme Court said
in Clemons that there would be no violation of the
Sixth Amendment right to jury trial where an appellate court invalidated one of two aggravating circumstances sustaining a death sentence at trial and
affirmed the death sentence on appeal after reweighing the aggravating and mitigating circumstances itself instead of remanding the case for jury sentencing.
Id. at 745, 110 S.Ct. at 1446. Given that the United
States Constitution does not mandate a capital sentencing proceeding be held before a jury for the reweighing of sentencing factors, I find it likewise does

App. 12
not require jury sentencing in a Stevens/Luna hearing
if that right has been previously waived.
¶8 Nor do I find jury resentencing mandated by
the applicable Oklahoma statute. Section 929 controls
when “the appellate court” finds prejudicial error only
with respect to the sentencing proceeding and remands the case to the district court for vacation of
the imposed sentence and resentencing. Johnson
knowingly and voluntarily pled guilty to First Degree
Murder to avoid a jury trial. A defendant who enters
a voluntary guilty plea waives his constitutional
rights, including the right to jury trial and all nonjurisdictional defects. See Lewis v. State, 2009 OK CR
30, ¶ 4, 220 P.3d 1140, 1142; Huddleston v. State, 1985
OK CR 12, ¶ 12, 695 P.2d 8, 10; Dobbs v. State, 1970 OK
CR 124, ¶ 6, 473 P.2d 260, 262. The cases dealing with
juvenile homicide offenders sentenced to LWOP simply
do not create, as the majority finds, any new constitutional right to jury trial which has yet to be waived.
And, although Johnson is undoubtedly entitled to a
new individualized sentencing hearing before he can
be sentenced to LWOP, he is not entitled to a new sentencing entity, namely a jury. For these reasons, I dissent.
¶9 I am authorized to state that Judge Hudson
joins in this dissent.

App. 13
IN THE DISTRICT COURT
OF OKLAHOMA COUNTY
STATE OF OKLAHOMA
STATE OF OKLAHOMA,

)
)
Plaintiff,
) Case No.
v.
) CF-2005-5714
JESSE ALLEN JOHNSON, )
Defendant.
)
ORDER
NOW this 18th day of October, 2018, this matter
comes on for consideration of the Defendant’s Request
for Jury Trial Pursuant to 22 O.S.2011, § 929 and the
State’s Response & Objection to Defendant’s Request for
Jury Trial Pursuant to 22 O.S. § 929. Defendant appears with his attorney, Melissa French, and the State
appears by assistant district attorneys Jimmy Harmon
and Jennifer Hinsperger. The parties have thoroughly
briefed the issues. The Court, having considered the
briefs and the arguments of counsel at hearing, finds
the Defendant waived his right to sentencing by a jury
when he entered his blind plea of guilty in this matter and he has no Sixth Amendment right to be resentenced by a jury.
IT IS THEREFORE ORDERED, ADJUDGED
AND DECREED that the Defendant’s request for
jury trial re-sentencing is DENIED.

App. 14
Dated this 18th day of October, 2018.
/s/ Ray C. Elliott
RAY C. ELLIOTT
DISTRICT JUDGE
Approved as to form:
/s/ Jennifer M. Hinsperger
Jennifer M. Hinsperger
Assistant District Attorney
/s/ Melissa French
Melissa French
Attorney for Defendant
[Certificate Of Service Omitted]

App. 15
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
JESSE ALLEN JOHNSON,

)
)
Petitioner,
) No. PC-2017-755
v.
)
THE STATE OF OKLAHOMA, )
)
Respondent.
ORDER GRANTING POST-CONVICTION
RELIEF, VACATING SENTENCE OF
LIFE WITHOUT PAROLE AND
REMANDING FOR RESENTENCING
(Filed May 22, 2018)
On July 20, 2017, Petitioner Johnson, pro se, appealed to this Court from the denial of Johnson’s Application for Post-Conviction Relief in Oklahoma
County District Court Case No. CF-2005-5714. Johnson’s request for relief is GRANTED.
On November 29, 2006, Johnson, represented by
counsel, entered a blind plea to Count 1, First Degree
Murder and Count 2, Conspiracy to Commit a Felony
in Oklahoma County Case No. CF-2005-5714. At the
conclusion of a sentencing hearing conducted January 3, 2007, Johnson was sentenced to life without
parole for Count 1 and ten (10) years for Count 2, the
sentences to be served concurrently. Johnson was seventeen (17) years old at the time the offense was committed, and eighteen (18) years old at the time he was

App. 16
sentenced. Johnson’s conviction was affirmed by this
Court in an unpublished opinion issued October 3,
2007. See, Johnson v. State of Oklahoma, C-2007-83
(Not for Publication). This is Johnson’s first application
for post-conviction relief filed with this Court in Case
No. CF-2005-5714.1
Johnson’s current application for post-conviction
relief filed with the district court alleges that because
he was a minor at the time he was sentenced, the imposition of a life without parole sentence was unconstitutional, citing Miller v. Alabama, 567 U.S. 460, 132
S.Ct. 2455, 183 L.Ed.2d 407 (2012)2, Montgomery v.
Louisiana, 577 U.S. ___, 136 S.Ct. 718, 193 L.Ed.2d
599 (2016), and this Court’s decision in Luna v. State,
2016 OK CR 27, 387 P.3d 956. In his application filed
with this Court, Johnson argues that Judge Elliott
abused his discretion by denying his request for resentencing.
In an order entered and filed June 26, 2017, the
District Court of Oklahoma County, the Honorable Ray
C. Elliott, District Judge, summarily denied Johnson’s
request for post-conviction relief. The court determined
that Johnson had previously filed an application for
post-conviction relief which the court had denied in an
1

This is Johnson’s second application for post-conviction relief filed with the District Court. The first application was filed
June 21, 2013, by and through counsel, and was denied in an order issued September 12, 2013. Although Johnson filed a Notice
of Appeal, no appeal of that denial was filed with this Court.
2
This claim was presented and rejected in Johnson’s first application for post-conviction relief filed June 21, 2013.

App. 17
order entered September 12, 2013. Judge Elliott found
that Johnson presented no good and sufficient reason
for the court to consider his most recent application for
post-conviction relief, and found all claims not previously addressed or asserted in the prior post-conviction
application were waived. Judge Elliott determined
Johnson was not entitled to relief and denied his request for the same.
The State’s response to Johnson’s application for
post-conviction relief, made part of the appeal record
in this matter, included a copy of the transcript of the
sentencing hearing conducted in Johnson’s case. Judge
Elliott presided over that hearing. Witnesses testified,
arguments were made and Judge Elliott announced
his decision at the conclusion of the hearing. We have
reviewed that hearing and determined that Johnson
has met the criteria established by this Court in Stevens v. State, 2018 OK CR 11, ¶ 26, ___ P.3d ___, ___
sufficient to warrant relief.
Although Judge Elliott conducted a sentencing
hearing in Johnson’s case, that hearing did not comport with the directives set forth in this Court’s decision in Stevens, id., governing resentencing of juveniles
sentenced to life without parole. As this Court noted in
Stevens, because he was sentenced prior to the Supreme Court’s pronouncement in Miller v. Alabama,
567 U.S. 460, 132 S.Ct. 2455, 183 L.Ed.2d 407 (2012),
Stevens could not have known what evidence to present at his sentencing hearing to fall within the protection of Miller, id. and Montgomery v. Louisiana,
577 U.S. ___, 136 S.Ct. 718, 193 L.Ed.2d 599 (2016).

App. 18
Likewise the sentencing judge in Stevens could not
have determined that Stevens was irreparably corrupt
and permanently incorrigible since he did not know
that he was required to make such a finding. Stevens
at ¶ 30.
Similarly, Johnson was unaware of the evidence
needed at the sentencing hearing to meet the protections established by the Supreme Court’s decisions in
Miller and Montgomery, and Judge Elliott did not determine that Johnson was irreparably corrupt and permanently incorrigible since he did not know he was
required to make such a finding.
Pursuant to this Court’s opinion issued in Stevens,
Johnson’s sentence of life without parole is VACATED
and this matter is REMANDED for resentencing, as
set forth at ¶¶ 31, 38-40 of the Stevens opinion.
Johnson’s pleas and convictions remain constitutionally valid.
The Clerk of this Court is directed to transmit a
copy of this order to the District Court of Oklahoma
County, the Honorable Ray C. Elliott, District Judge;
the Court Clerk of Oklahoma County; Petitioner and
counsel of record.
Pursuant to Rule 3.15, Rules of the Oklahoma
Court of Criminal Appeals, Title 22, Ch.18, App. (2018),
the MANDATE is ORDERED issued upon the delivery and filing of this decision.

App. 19
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 22nd day of May, 2018.
/s/ Gary L. Lumpkin
GARY L. LUMPKIN,
Presiding Judge
/s/ David B. Lewis
DAVID B. LEWIS,
Vice Presiding Judge
/s/ Robert L. Hudson
ROBERT L. HUDSON,
Judge
/s/ Dana Kuehn
DANA KUEHN,
Judge
/s/ Scott Rowland
SCOTT ROWLAND,
Judge
ATTEST:
/s/ John D. Hadden
Clerk
PA/F

App. 20
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
JESSE ALLEN JOHNSON, )
) NOT FOR
Petitioner,
) PUBLICATION
v.
)
THE STATE OF OKLAHOMA, ) Case No. C-2007-83
)
Respondent.
SUMMARY OPINION DENYING CERTIORARI
(Filed Oct. 3, 2007)
LUMPKIN, PRESIDING JUDGE:
Petitioner, Jesse Allen Johnson, entered a blind
guilty plea in the District Court of Oklahoma County,
Case Number CF-2005-5714, and was convicted of
First Degree Murder, Count I, in violation of 21
O.S.2001, § 701.7, and Conspiracy to Commit a Felony
(First Degree Murder), Count II, in violation of 21
OS.2001, § 421. Petitioner was sentenced to life imprisonment without the possibility of parole on Count I
and ten (10) years imprisonment on Count II, with
both counts to run concurrently. Petitioner moved to
withdraw his plea, but that request was denied following a hearing. Petitioner now appeals his conviction
and the denial of his motion to withdraw plea.

App. 21
Petitioner raises the following propositions of error in this appeal:
I.

Petitioner’s plea was entered as a result
of a misunderstanding of the legal process;

II. Petitioner was denied his right to effective assistance of counsel at his plea hearing;
III. Petitioner’s sentence is excessive and
should be modified;
IV. Reversible error occurred when the trial
court accepted Petitioner’s pleas without
informing him of the elements of each offense charged; and
V.

Petitioner is entitled to relief based upon
cumulative error.

After a thorough consideration of these propositions
and the entire record before us, including the original
record, transcripts, and briefs of the parties, we find
reversal or modification is not required.
With respect to proposition one, we find Petitioner’s plea was entered voluntarily and intelligently.
Hagar v. State, 1999 OK CR 35, ¶ 4, 990 P.2d 894, 896.
This was an extensive guilty plea hearing and sentencing with many witnesses. The trial judge was especially thorough, explained the process to Petitioner,
and ensured Petitioner was thoroughly advised as to
all facets of the plea. The trial court did not abuse its
discretion in rejecting Petitioner’s request to withdraw

App. 22
his plea. Cox v. State, 2006 OK CR 51, ¶ 18, 152 P.3d
244.
With respect to proposition two, we find Petitioner
has failed to show errors by counsel that were so serious as to deprive him of a fair trial, one with a reliable
result. Strickland v. Washington, 466 U.S. 668, 687, 104
S.Ct. 2052, 2064, 80 L.Ed.2d 674 (1984). Defense counsel effectively represented Petitioner throughout the
plea and sentencing proceedings.
With respect to proposition three, we find Petitioner’s sentence is not excessive. Rea v. State, 2001 OK
CR 28, ¶5, 34 P.3d 148, 149. While Petitioner’s age and
borderline intelligence are pertinent to this discussion,
he was a chief component of a very vicious horrific
crime. His participation for the promise of what proved
to be a paltry sum, $200.00, is incredible.
With respect to proposition four, we find the record
does not support the claim that Petitioner was not informed of the elements of any of the charged offenses.
His case does not parallel Zakszewski v. State, 1987 OK
CR 152, 739 P.2d 544.
With respect to proposition five, we find no errors
have been shown and thus the cumulative error claim
is without merit. Myers v. State, 2006 OK CR 12, ¶103,
133 P.3d 312, 336.
DECISION
The Petition for Writ of Certiorari is hereby
DENIED; the judgment and sentences are hereby

App. 23
AFFIRMED. Pursuant to Rule 3.15, Rules of the Oklahoma Court of Criminal Appeals, Title 22, Ch.18,
App. (2006), the MANDATE is ORDERED issued
upon the delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT
OF OKLAHOMA COUNTY
THE HONORABLE, RAY C. ELLIOTT
DISTRICT JUDGE
APPEARANCES
AT TRIAL

APPEARANCES
ON APPEAL

MR. CHARLES R. ROUSE
1330 N. CLASSEN BLVD.,
STE. G40
OKLAHOMA CITY, OK 73106
COUNSEL FOR
PETITIONER

DANNY G. LOHMANN
P.O. BOX 926
NORMAN, OK 73070
COUNSEL FOR
PETITIONER

MR. STEVE DEUTSCH
ASSISTANT DISTRICT
ATTORNEY
OKLAHOMA COUNTY
DISTRICT ATTORNEY’S
OFFICE
320 ROBERT S. KERR,
505 COUNTY
OFFICE BUILDING
OKLAHOMA CITY, OK 73102
COUNSEL FOR THE STATE

App. 24
OPINION BY: LUMPKIN, P.J.
C. JOHNSON, V.P.J.: CONCUR
CHAPEL, J.: CONCUR
A. JOHNSON, J.: CONCUR
LEWIS, J.: CONCUR
RA

App. 25
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
)
)
Appellant,
)
v.
)
THE STATE OF OKLAHOMA, )
)
Appellee.
)
J.A.J.,

No. J-2006-259

ACCELERATED DOCKET ORDER
(Filed Jun. 22, 2006)
On October 7, 2005, Appellant was charged as an
adult with First Degree Murder and Conspiracy to
Commit First Degree Murder in Case No. CF-20055714 in the District Court of Oklahoma County.1 Appellant was seventeen (17) years and four (4) months
old at that time, and was charged as an adult.2 On December 20, 2005, Appellant filed a motion to be certified to stand trial as either a Youthful Offender or a
Juvenile. A preliminary hearing was conducted December 21, 2005. Appellant’s certification hearing was
conducted on March 3, 2006. On March 16, 2005, the
District Court of Oklahoma County, the Honorable
Gregory J. Ryan, Special Judge, entered an order denying Appellant’s request for certification as either a
1

Appellant is charged along with four (4) other co-defendants
in the death of Leroy Vigil.
2
Appellant’s date of birth is May 29, 1988. At the time of
Appellant’s hearing before this Court he was 18 years and 2
weeks old.

App. 26
juvenile or youthful offender, and Appellant was bound
over for trial as an adult. From this Judgment, Appellant appeals.
On appeal Appellant raised two propositions of error:
1.

The trial court abused its discretion in denying Appellant’s Motion or Certification as a
Youthful Offender by finding Appellant would
not complete the plan of rehabilitation and
that the public would not be adequately protected if he were sentenced as a Youthful Offender; and

2.

Delay in the proceedings unduly prejudiced
Appellant in violation of the Sixth and Fourteenth Amendments to the United States
Constitution and the Rules of the Court of
Criminal Appeals governing juvenile proceedings.

Pursuant to Rule 11.2(1), Rules of the Oklahoma
Court of Criminal Appeals, Title 22, Ch.18, App. (2006)
this appeal was automatically assigned to the Accelerated Docket of this Court. The propositions or issues
were presented to this Court in oral argument June 8,
2006, pursuant to Rule 11.2(F). At the conclusion of
oral argument, the parties were advised of the decision
of this Court.
The District Court’s order denying Appellant’s request to be certified to stand trial as a Youthful Offender is AFFIRMED.

App. 27
We note first that, by operation of law, Appellant
was charged as an adult. 10 O.S.2001 §7306-2.5(D).
Pursuant to 10 O.S.2001 §§ 7306-2.5(A) Appellant filed
a motion to be certified to be treated either as a juvenile or youthful offender. The burden to sustain the motion to be certified as a juvenile or youthful offender
falls upon the accused. J.D.P. v. State, 1999 OK CR 5,
¶ 6, 989 P.2d 948, 949; 10 O.S. § 7306-2.6(A)(6). It is not
the State’s responsibility to show that Appellant is not
amenable to treatment as a juvenile or youthful offender. It is Appellant’s burden to overcome the presumption that he should be tried as an adult by
showing that he is amenable to treatment as a juvenile
or youthful offender and should be certified as such.
The question before this Court is whether or not
the trial court abused its discretion in denying Appellant’s motion for certification as a juvenile or youthful
offender. “[A]buse of discretion” is defined by this Court
as:
. . . a clearly erroneous conclusion and judgment, one that is clearly against the logic and
effect of the facts presented in support of and
against the application. . . . The trial court’s
decision must be determined by the evidence
presented on the record, just as our review is
limited to the record presented.
(citations omitted.) W.C.P. v. State, 1990 OK CR 24, ¶ 9,
791 P.2d 97, 100. See also, C.L.F. v. State, 1999 OK
CR 12, ¶ 5, 70 OBJ 946, 946 (Okl.Cr. 1999). After reviewing the appeal record in this matter, including the
psychological evaluation and certification study, the

App. 28
preliminary hearing and certification hearing transcripts, we find that the District Court did not abuse
its discretion in denying Appellant’s motion to be certified as a juvenile or youthful offender.
A recital of the relevant facts is necessary to
properly evaluate the claims presented in Appellant’s
appeal. Appellant was contacted by co-defendant Antwoyn Turner who offered to pay him a sum of money
in exchange for Appellant’s assistance in killing
Turner’s girlfriend’s father, Leroy Vigil. Appellant advised Turner that he would have to consider the request and would call Turner with his answer.
Appellant agreed to assist Turner in the murder, and
met with Turner, and three other individuals that
same evening to discuss how to commit the crime. The
five devised a plan to kill Vigil, and subsequently executed it, killing Vigil in the process. Although Appellant did not know Vigil, he agreed to assist in beating
Vigil with a baseball bat, and eventually shot Vigil in
the head three times. The day after the murder, Turner
paid Appellant $200, which he spent on speakers for
his car.
Appellant’s psychological evaluation, which was
introduced into evidence at Appellant’s certification
hearing, was conducted by Dr. Herman Jones, Ph.D.3
Dr. Jones concluded that Appellant was amenable to
treatment as a Youthful Offender. Dr. Jones opined
that because of the nature and seriousness of the
3

ing.

Dr. Jones did not testify at Appellant’s certification hear-

App. 29
charged offense, Appellant would require extensive
monitoring, a “heightened intensity of services” and
treatment would take at least 15 to 18 months, requiring extension of custody over Appellant past his nineteenth (19) birthday. Appellant has no prior contacts
with the justice system.
Jay Giezentanner, a Juvenile Justice Specialist,
employed by O.J.A. also interviewed Appellant. He testified at the certification hearing and his report was
introduced into evidence. Because of the nature of
the offense, and the assessment determining that Appellant was in need of extensive treatment, Mr.
Giezentanner determined that Appellant was not amenable to treatment in the time remaining before he
reached his 19th birthday.
We find nothing in the record presented to this
Court indicating the trial court abused its discretion in
denying Appellant’s request for certification as a
Youthful Offender. Despite Appellant’s age, and his
lack of prior contacts with the juvenile system, there
was sufficient evidence for the District Court to determine that Appellant was not amenable to the extensive
treatment deemed necessary to facilitate his rehabilitation.
With regard to Appellant’s claims of delay, as
noted at Appellant’s hearing, all parties involved in Appellant’s case contributed to the delay in proceedings. Moreover, because of the number of defendants
involved in this matter, and the nature of the charges,

App. 30
we find no support for Appellant’s claim that the delay
in this instance was unreasonable.
IT IS THEREFORE THE ORDER OF THIS
COURT by a vote of three (3) to two (2) that the order
of the District Court of Oklahoma County denying Appellant’s request for Certification as a Youthful Offender in Case No. CF-2005-5714 is AFFIRMED.
Pursuant to Rule 3.15, Rules of the Oklahoma
Court of Criminal Appeals, Title 22, Ch.18, App. (2006),
the MANDATE is ORDERED issued upon the delivery and filing of this decision.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 22nd day of June, 2006.
/s/ Charles S. Chapel – Dissents
CHARLES S. CHAPEL,
Presiding Judge
/s/ Gary L. Lumpkin
GARY L. LUMPKIN,
Vice Presiding Judge
/s/ Charles A. Johnson – Dissent
CHARLES A. JOHNSON,
Judge
/s/ Arlene Johnson
ARLENE JOHNSON, Judge

App. 31
/s/ David Lewis
DAVID LEWIS, Judge
ATTEST:
/s/ Michael S. Richie
Clerk
F

